                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington D.C. 20250




DATE:         November 15, 2010

REPLY TO
ATTN OF: 50401-71-FM

TO:           Jon M. Holladay
              Acting Chief Financial Officer
              Office of the Chief Financial Officer

ATTN:         Kathy Donaldson
              Audit Liaison Officer
              Office of the Chief Financial Officer

SUBJECT:      Report on the Department of Agriculture’s Special Purpose Financial
              Statements for Fiscal Years 2010 and 2009


We have audited the accompanying reclassified balance sheets as of September 30, 2010 and
2009, and the related reclassified statements of net cost and changes in net position for the years
then ended (hereinafter referred to as the special-purpose financial statements), contained in the
special-purpose closing package of the Department of Agriculture (USDA). These special-
purpose financial statements are the responsibility of USDA’s management. Our responsibility
is to express an opinion on these special-purpose financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, and the standards applicable to financial audits contained in U.S. Government
Auditing Standards, issued by the Comptroller General of the United States; and, Office of
Management and Budget (OMB) Bulletin 07-04, Audit Requirements for Federal Financial
Statements, as amended. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the special-purpose financial statements are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the special-purpose financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, and evaluating the
overall special-purpose financial statement presentation. We believe that our audit provides a
reasonable basis for our opinion.

The accompanying special-purpose financial statements and accompanying notes contained in
the special-purpose closing package have been prepared for the purpose of complying with the
requirements of the U.S. Department of Treasury’s Financial Manual (TFM) Volume I, Part 2,
Chapter 4700 solely for the purpose of providing financial information to the U.S. Department of
Treasury (Treasury) and U.S. Government Accountability Office (GAO) to use in preparing and
Jon Holladay                                                                                       2

auditing the Financial Report of the U.S. Government, and are not intended to be a complete
presentation of USDA’s financial statements.

In our opinion, the special-purpose financial statements and accompanying notes referred to
above present fairly, in all material respects, the financial position of USDA as of September 30,
2010 and 2009, and its net costs, and changes in net position for the years then ended, in
conformity with accounting principles generally accepted in the United States of America and
the presentation pursuant to the requirements of the TFM Chapter 4700.

The information included in the “Other Data” is presented for the purpose of additional analysis
and is not a required part of the special-purpose financial statements, but is supplementary
information required by TFM Chapter 4700. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding methodology and presentation of this
information. We also reviewed such information for consistency with the related information
presented in USDA’s financial statements. However, we did not audit this information, and
accordingly, we express no opinion on it. As a result of such limited procedures, we believe that
controls over “Other Data” related to deferred maintenance are not sufficient to ensure the
accuracy and completeness of the reported information.

In accordance with U.S. Government Auditing Standards and OMB Bulletin 07-04, as amended,
we have also issued reports dated November 12, 2010, on our consideration of USDA’s internal
control over financial reporting and its compliance with certain provisions of laws and
regulations. Those reports are an integral part of an audit of general-purpose financial statement
reporting performed in accordance with U.S. Government Auditing Standards and OMB Bulletin
07-04, as amended, and should be read in conjunction with this report in considering the results
of our audit.

In planning and performing our audit of the special-purpose financial statements, we also
considered USDA’s internal control over the financial reporting process for the special-purpose
financial statements and compliance with TFM Chapter 4700. Management is responsible for
establishing and maintaining internal control over financial reporting, including “Other Data”,
and for complying with laws and regulations, including compliance with TFM Chapter 4700
requirements.

Our consideration of internal control over the financial reporting process for the special-purpose
financial statements would not necessarily disclose all matters in the internal control over the
financial reporting process that might be significant deficiencies. Significant deficiencies are
deficiencies or a combination of deficiencies, in internal control that are less severe than a
material weakness, yet important enough to merit attention by those charged with governance.
Material weaknesses are deficiencies or a combination of deficiencies in internal control, such
that there is a reasonable possibility that a material misstatement of the special-purpose financial
statements being audited will not be prevented, or detected and corrected on a timely basis.

We found no material weaknesses in internal control over the financial reporting process for the
special-purpose financial statements, and our tests of compliance with TFM Chapter 4700
Jon Holladay                                                                                      3

requirements disclosed no instances of noncompliance that are required to be reported under
U.S. Government Auditing Standards and OMB Bulletin 07-04, as amended. However,
providing opinions on internal control over the financial reporting process for the special-
purpose financial statements or on compliance with TFM Chapter 4700 requirements were not
objectives of our audit of the special-purpose financial statements and, accordingly, we do not
express such opinions.

This report is intended solely for the information and use of USDA, Treasury, OMB, and GAO
in connection with the preparation and audit of the Financial Report of the U.S. Government, and
is not intended to be and should not be, used by anyone other than these specified parties.




/s/ <Tracy LaPoint> (for): Gil Harden
Assistant Inspector General
  for Audit

November 15, 2010
